No. 20-245
__________________________________________________

In The

Supreme Court of the United States
________________________________
PATRICIA NELSON, next friend of N.K., a minor,
Petitioner,
v.
ESTEBAN RIVERA, Respondent.
__________________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Sixth Circuit
__________________________________________________
BRIEF IN OPPOSITION
__________________________________________________
Jill Humphreys Steele
City Attorney
Counsel of Record
City Attorney’s Office
10 N Division Street, Ste 207
Battle Creek, Michigan 49014
(269) 966-3385
jhsteele@battlecreekmi.gov
Counsel for Respondent

i

QUESTION PRESENTED
Where the undisputed facts show that an officer who
responded to a 911 dispatch call stemming from a
citizen report that a white man in a gray shirt and jeans
was carrying a black hand gun who may be at the Drive
Thru Party Store, and where the officer spotted a
suspect matching the description crouched down
outside that very convenience store and then twice
ordered the suspect: “Let me see your hands!” but
instead of showing his hands, the suspect pulled the
gun out of his waistband, is it objectively reasonable for
an officer to believe that the suspect presents an
immediate threat when he sees the reach, even though
it turns out the suspect threw the gun to the ground,
entitling the officer to the protection of qualified
immunity for shooting the suspect once in the shoulder
when these things all happened over a span of two
seconds?

ii

TABLE OF CONTENTS
Page
QUESTION PRESENTED ………………………………..i
TABLE OF CONTENTS ……………………………….…ii
TABLE OF CITED AUTHORITIES …………………….v
OPINIONS BELOW …………………………………….…1
INTRODUCTION ………………………………………….1
Statement of the Case…………………………..…………3
Statutory and legal context ………………………3
Factual context ……………………………………..6
N.K.’s preparation and “game”…………...6
Dispatch call ………………………………..7
Officer Rivera’s arrival on scene …………7
The confrontation ………………………….7
The shot to the shoulder……………….…..8
Procedural history………………………….9
Reasons for denying the Writ……………………11

iii

Table of Contents
I.

There is no triable material fact issue
regarding Officer Rivera’s entitlement to
summary judgment on grounds of qualified
immunity ………………………………………12

II.

There is no split of authority ………………..19
A.
This case is not in conflict with
Tolan………………….…………………… 19
B.
Petitioner has made no attempt to
demonstrate a split in authority among
the circuits ………………..……………….20

III.

This is not the case to do away with the
Doctrine of Qualified Immunity, where
Respondent was found not to have violated
Petitioner’s constitutional rights……...……23

PRAYER FOR RELIEF ………………………………….26

iv

TABLE OF CITED AUTHORITIES
Page
CASES:
Ayala v. Wolfe, 546 F. App'x 197 (4th Cir. 2013)…….21
Baptiste v. Gutierrez, 627 F.3d 816 (11th Cir. 2010)….23
Boyd v. Baeppler, 215 F.3d 594 (6th Cir. 2000)………...5
Brennan v. Dawson,
752 Fed. Appx. 276 (6th Cir. 2018)………………….…..24
Brosseau v. Haugen, 543 U.S. 194 (2004)……………...19
Burgess v. Fischer, 735 F.3d 462 (6th Cir. 2013) ……..18
Corbitt v. Vickers, 929 F.3d 1304 (11th Cir. 2019)…….24
Elder v. Holloway, 510 U.S. 510 (1994)……...........…….5
Elliott v Leavitt, 99 F.3d 640 (4th Cir. 1996)…………..21
Estate of Valverde v. Dodge,
967 F.3d 1049 (10th Cir. 2020)………………………….22
Fidelity & Deposit Co., 187 U.S. 315 (1902)…………...18
Florence v. Frontier Airlines, Inc.,
149 F. App’x 237 (5th Cir. 2005)…………………………18
Graham v. Connor, 490 U.S. 386 (1989)………...…18, 19

v

Cited Authorities
Harris v. Interstate Brands Corp.,
348 F.3d 761 (8th Cir. 2003)………………….....………18
Lamont v. New Jersey, 637 F.3d 177 (3d Cir. 2011)…21
Mullenix v. Luna, 136 S.Ct. 305 (2015)………………...19
Mullins v. Cyranek,
805 F.3d 760 (6th Cir. 2015)....................................16-18
Pace v. Capobianco, 283 F.3d 1275 (11th Cir. 2002)….23
Pearson v Callahan, 555 U.S. 223, 243 (2009)……….…5
Pollard v. City of Columbus, Ohio,
780 F.3d 395 (6th Cir. 2015).........................................18
Reese v. Anderson, 926 F.2d 494 (5th Cir. 1991)….18, 22
Roberson v. Torres, 770 F.3d 398 (6th Cir. 2014).........13
Robinson v. Arrugueta,
415 F.3d 1252 (11th Cir. 2005).....................................23
Sample v Bailey, 409 F.3d 689 (6th Cir. 2005)……….....4
Saucier v. Katz, 533 U.S. 194 (2001)………………….….5
Scott v Harris, 550 U.S. 372 (2007)…………………...….5
Sigman v. Town of Chapel Hill,
161 F.3d 782 (4th Cir. 1998)……………………………..18

vi

Cited Authorities
Sova v. City of Mt. Pleasant,
142 F.3d 898 (6th Cir. 1998)………………………....….18
Stanton v Sims, 571 U.S. 3 (2013)…………………….….4
Tolan v Cotton, 572 U.S. 650 (2014)…….2, 4, 11, 14, 20
Untalan v. City of Lorain,
430 F.3d 312 (6th Cir. 2005)……………………………...17
Valderas v. City of Lubbock,
937 F.3d 384 (5th Cir. 2019)………………………....21-22
West v. City of Caldwell,
931 F.3d 978 (9th Cir. 2019)…………………………...…25
White v. Pauly, 137 S.Ct. 548 (2017)…………………....19
STATUTES AND OTHER AUTHORITIES:
Fourth Amendment to the U.S. Constitution,
………………………………………….. …..3, 10, 13, 14, 24
42 U.S.C. §1983 ………………………..…………….……..3
Fed. R. Civ. P. 56(c)…………………………..……….13, 18

1

OPINIONS BELOW
The Order of the United States Court of Appeals
for the Sixth Circuit Denying a Petition for Rehearing
en banc (Pet. App. 34) is reported at 2020 U.S. App.
LEXIS 10317* (6th Cir. April 1, 2020). The opinion of
the Circuit Court of Appeals (Pet. App. 2-19) is reported
at 802 Fed. Appx. 983* (6th Cir. Feb. 4, 2020). The order
of the district court (Pet. App. 21-32) is reported at 2018
U.S. Dist. LEXIS 27780* (W.D. Mich. Feb. 21, 2018).
For consistency, citations to the record are made in the
same format as Petitioner, referencing the page in
Petitioner’s Appendix.
INTRODUCTION
There is no split of authorities in the courts of
appeals on the issue of an officer’s entitlement to
qualified immunity for using deadly force to protect
himself when he reasonably, even if incorrectly,
believes that a suspect presents an immediate threat to
his safety or others nearby. The circuit courts of appeals
uniformly rely on and apply the criteria this Court has
established to analyze when an officer is entitled to
qualified immunity. Following this Court’s precedents,
the circuit courts consider the totality of the
circumstances when analyzing if it was reasonable for
the officer to use deadly force, even where the suspect
was later found to have been unarmed at the time of the
use of force. The circuit courts also follow this Court’s
precedents in applying the standard for granting
summary judgment in a case where the plaintiff has the
burden to overcome the defense of qualified immunity.

2

Instead of following that established framework,
Petitioner attempted to demonstrate an error in a
factual finding and/or that the circuit court of appeals
misapplied a correctly stated rule of law. And without
identifying any circuit split, Petitioner characterizes
the opinion below as though it authorizes officers to
shoot a suspect even though the suspect is unarmed and
poses no threat, disregarding the totality of the
circumstances, and disregarding what a reasonable
officer on the scene would objectively perceive when
having to make a split-second decision. Petitioner
attempts to apply the summary judgment standard to
allow inference to be stacked upon inference as a way of
overcoming N.K.’s own admissions of disregarding
commands of the officer to “show his hands” and instead
reaching for the gun, and despite N.K. having the
opportunity to directly contradict the officer’s testimony
but not doing so.
Petitioner’s Writ does not rely upon any decisions
of settled law to present clearly established law to
defeat qualified immunity. Instead, Petitioner relies
upon a case that couldn’t be more dissimilar to the
instant case: Tolan v Cotton, 572 U.S. 650 (2014),
standing for the proposition that for the purposes of
analyzing a summary judgment motion, the court must
take the facts in the light most favorable to the
nonmoving party. However, Tolan did not have a video
recording, the officer did not concede Petitioner’s main
point as Rivera did here, nor was there any hint of a
gun or any weapon, all of which were undisputed
material factors in the instant case. Finally, the
material facts of Tolan were not alleged to have taken
place over a mere two-second time span nor anything
close to that short.

3

Petitioner then cites various inapplicable and
wholly dissimilar out-of-circuit cases where the
reviewing court had not viewed the facts in the light
most favorable to the nonmoving party. None of these
cases were even presented as providing clearly
established law. Nothing in Petitioner’s cases suggests
that any of the circuit courts would reach a result
different from what the Sixth Circuit did based upon
the facts of this case.
Finally, the main thrust of Petitioner’s Writ is an
attempt at a persuasive argument that the doctrine of
qualified immunity should be tossed aside, in spite of
the fact that this court has denied Petitions for Writs of
Certiorari as recently as June of 2020 for excessive force
cases where the lower court held that the Defendant
had violated the Plaintiff’s constitutional rights but
that the law had not been clearly established thus the
officer was granted qualified immunity in each case.
Such an argument is clearly inapplicable to the instant
case where the circuit court of appeals held that
Respondent had not violated Petitioner’s constitutional
rights.
STATEMENT OF THE CASE
Statutory and legal context
Through his mother Patricia Nelson as next
friend, Petitioner, N.K., a minor, brought this suit
under 42 U.S.C. § 1983 asserting that Officer Rivera
violated his rights against excessive force under the
Fourth Amendment to the U.S. Constitution. Petitioner
contends that Officer Rivera’s use of deadly force to stop
a perceived threat was excessive because Petitioner was

4

later found to have tossed down his gun in the second
before having been shot. The district court below
mistakenly found the legal question of whether Officer
Rivera violated N.K.’s clearly established constitutional
rights was dependent upon disputed facts in spite of the
fact that the material facts were found within the
parties’ joint statement of the material facts and the
dash cam video, and that N.K.’s deposition testimony
filled any gaps, and further Officer Rivera had conceded
to Ms. Nelson’s version of the facts to the extent they
were not contradicted to that which had been captured
by the video, and denied summary judgment. The Sixth
Circuit Court of Appeals below reversed the district
court, holding the facts which were material were not
in dispute, and Officer Rivera reasonably perceived a
threat of serious physical harm and therefore
Respondent Rivera was entitled to qualified immunity.
The Sixth Circuit has long recognized that the
purpose of qualified immunity is to protect police
officers “from undue interference with their duties and
from potentially disabling threats of liability.” Sample
v Bailey, 409 F.3d 689, 695 (6th Cir. 2005) (quoting Elder
v. Holloway, 510 U.S. 510, 514 (1994). The defense of
qualified immunity allows police officers “breathing
room to make reasonable but mistaken judgments and
protects all but the plainly incompetent or those who
knowingly violate the law.” Stanton v Sims, 571 U.S. 3,
6 (2013) (per curium) (citations and internal quotation
marks omitted). The first step is to “define the ‘clearly
established’ right at issue on the basis of the ‘specific
context’ of the case.’” Tolan v Cotton, 134 S. Ct. 1861,
1866 (2014). That requires analyzing the specific
factual situation confronting the officer when he
decided to use deadly force.” Id. First, the court must

5

determine if the facts, taken in the light most favorable
to the party asserting the injury, shows the officer’s
conduct violated a constitutional right. Saucier v. Katz,
533 U.S. 194, 201 (2001). Second, if a constitutional
right has been violated, the court must ask whether the
right was clearly established. Id. The inquiry into
whether the individual officers are entitled to qualified
immunity turns on the objective reasonableness of their
actions in light of the legal rules clearly established at
the time. Pearson v Callahan, 555 U.S. 223, 243 (2009).
If the conduct did not violate a constitutional right, then
there is no need to address the second prong of the
qualified immunity analysis. Id. at 922.
It is incumbent upon the non-moving party to
prove that the factual difference is “material,” meaning
that “its resolution will affect the outcome of the
controversy” in order to preclude the entry of summary
judgment. Boyd v. Baeppler, 215 F.3d 594, 599 (6th Cir.
2000). “Factual disputes which are irrelevant or
unnecessary won’t be counted.” Id.
Where there is a video recording of the incident
in the record, the court takes the facts as they appear
in the video, even though it may not necessarily be in
the light most favorable to the nonmoving party. Scott
v Harris, 550 U.S. 372, 378-70 (2007).

Whether an asserted constitutional right was
“clearly established” at such time “presents a question
of law,” not fact. Elder v. Holloway, 510 U.S. 510, 516
(1994)(quoting Mitchell v. Forsyth, 472 U.S. 511 at 528
(1985)).

6

Factual Context
Although the district court mistakenly
considered a disputed fact as material, it accurately
recited the undisputed facts of this case which were
material, some of which will be repeated here. The
circuit court of appeals also accurately recited
additional material facts in this case, some of which will
also be repeated here. Petitioner omitted important
undisputed facts and admissions by N.K. in its
statement of facts, which are included below.
N.K.’s Preparation and the “Game”
On November 16, 2013, N.K. and three of his
friends (S.C., S.W., and J.W.) were playing “cops and
robbers” in N.K.’s neighborhood. (A3, A22) During this
game, N.K. had an Airsoft BB pistol, which he had
colored all black with a Sharpie marker. (A3, A22) The
Airsoft gun had also been altered so that it no longer
had the blaze-orange barrel tip, which typically
characterizes these types of toy guns. (A3, A22) N.K.
carried around his altered Airsoft BB gun to make their
game feel “more real.” (A3) N.K.’s mother and a friend
both warned him that he was going to get himself hurt
brandishing the replica because a reasonable person
would think it was real at first glance. (A26) N.K. was
openly displaying the gun before the incident as he
walked toward the party store. (A27) N.K. and his
friends took a break from the cops-and-robbers game
and went to the Drive-Thru Party Store because the
girls had to use the bathroom. (A3, A22) While the girls
were in the party store, N.K. crouched down behind a
sign, and tucked the BB gun into his waistband before
Officer Rivera arrived. (A3, A22, A27)

7

Dispatch Call
A citizen called 911 reporting that a white male
was carrying a black handgun near the Party Store.
(A3, A27) Officer Rivera responded, was dispatched and
en route to the call at the Party Store at 11:58 am. (A3)
Officer Rivera’s Arrival on Scene
Officer Rivera did not activate his lights or siren.
(A22) He waited to approach until it seemed as if the
situation could quickly grow much more dangerous.
(A26) N.K. was still crouched down by a sign at the end
of the store when he first saw Officer Rivera’s car. (A22)
With the gun tucked into his waistband, N.K. walked
toward the front door of the store. (A22) As Officer
Rivera turned onto the street of the Party Store, he
radioed dispatch to tell them he saw the suspect (N.K.)
walking toward the store. (A22) As Officer Rivera
turned into the store parking lot, he could see the girls
exit the Party Store and N.K. walking toward them.
(A22) Officer Rivera pulled in and parked his patrol car
at an angle in front of N.K. and the girls, using it to
create a wedge between potential hostages and
immediately exited his car. (A3, A22, A26)
The Confrontation
As he exited the patrol car, Officer Rivera twice
demanded, “Let me see your hands! Let me see your
hands!” (A3, A26) N.K. did not immediately comply
with Officer Rivera’s orders. (A28) Although the video
does not clearly show N.K.’s actions when Defendant
yelled, “let me see your hands,” according to N.K.’s own
testimony, when Defendant said, “let me see your

8

hands,” N.K. instead “pulled the gun out and thr[e]w it
then kick[ed] it.” (A28, A31) N.K. was in front of
Defendant’s police car when he reached his hand into
his waistband and pulled the gun out and then kicked
it. (A28) N.K. admitted he took this action after
Officer Rivera said let me see your hands. (A28)
Officer Rivera stated that he made the decision to pull
the trigger in response to the perceived threat of harm.
(A30)
The Shot to the Shoulder
Within a two-second period of time, two
things happened: 1) N.K. pulled the gun out of his
waistband and tossed it away before raising his hands;
and 2) While N.K. was doing this, Rivera fired one shot
at N.K. (A3) Although the dash cam video does not
depict Rivera in-frame, nor does it completely show
N.K., it does capture the audio and timing of this
exchange. (A3) While Officer Rivera uttered his second
“let me see your hands order,” one of N.K.’s friends
moved away from the patrol car making N.K. partially
visible. (A3) N.K.’s right hand appears near his right
shoulder and Rivera fired his weapon. (A3) N.K. then
turned slightly and crouches down, and his left hand
appeared near his left ear. (A3) Rivera testified that it
was only after he decided to shoot and started pulling
the trigger that he realized N.K. was tossing the gun
away. (A4) For purposes of the appeal, Officer Rivera
conceded that “at the moment the bullet actually hit
N.K., N.K. had thrown away the gun and had begun to
raise his hands ‘sort of halfway or whatever.’ ” (A4) N.K.
also admitted that after he threw the gun, he had gotten
his hands up halfway when he was shot in the shoulder.
(A30)

9

Officer Rivera fired his gun one time, hitting
N.K. in the right shoulder. (A22) N.K. then ran away as
Officer Rivera shouted, “Get on the ground. Get on the
ground.” Other officers found N.K. nearby and took him
to the hospital for treatment. (A4)
Procedural history
Nelson sued the City of Battle Creek and Officer
Rivera, claiming that the shooting was a violation of
N.K.’s constitutionally protected rights. Nelson
stipulated early in the case to dismiss the City of Battle
Creek. The district court denied Officer Rivera’s motion
for summary judgment on the sole remaining count of
excessive force under 42 USC §1983, finding that three
major factual disputes precluded summary judgment:
(1) whether N.K. was “brandishing a gun” or
“unarmed”; (2) whether N.K. complied with Rivera’s
orders; and (3) the timing of the shooting relative to
N.K.’s compliance and handling of the gun. (A4)
Officer Rivera appealed to the circuit court of
appeals, which reversed the district court and
remanded for entry of summary judgment in Rivera’s
favor on the basis of qualified immunity. The circuit
court of appeals held that what the district court had
identified as the “key disputed issues” were not
genuinely disputed based upon N.K.’s acknowledgment
that when given an order to raise his hands, he pulled
the gun out of his pants and then raised his hands and
Rivera’s concession that by the time he shot N.K., N.K.
had released the gun and begun raising his hands.(A7)
It further held that neither the district court nor
Petitioner herein identified any case law where an
officer under sufficiently similar circumstances was

10

held to have violated the Fourth Amendment thus there
was no clearly established law under which to deny
Officer Rivera qualified immunity. (A9)
The circuit court of appeals identified the
pertinent issue for purposes of qualified immunity
analysis as this: “[A]s of November 16, 2013, was it
clearly established that it was unconstitutional for an
officer to shoot when, over the span of two seconds,
someone pulls what appears to be a real gun, drops it,
and raises his hands after being given a warning.” (A9)
In reversing the district court, the 6th Circuit
Court of Appeals answered the question in the negative,
holding: “We hold it was not. Rivera reasonably
perceived a threat of serious physical harm when he
saw N.K. reach for and grab what looked like a real gun.
It was not objectively unreasonable for Rivera to decide
to shoot N.K. as he saw N.K. grip and raise his gun,
even if the bullet ultimately struck N.K. after he had
dropped the gun.” (A9) “[T]hese observations about
when N.K. was struck – which Rivera concedes was
after N.K. threw his gun away – do not create a dispute
of fact as to when Rivera decided to shoot. Rivera claims
he decided to shoot when he saw N.K. grab and raise
the gun. Nelson fails to dispute this fact because N.K.
and other witnesses cannot speak to Rivera’s decisionmaking or his perception of harm in the two-second
span the events unfolded.” (A10)
Ms. Nelson timely filed a Petition for Rehearing
En Banc. The 6th Circuit Court of Appeals entered an
order April 1, 2020 denying the Petition, with the Order
providing: “The original panel has reviewed the petition
for rehearing and concludes that the issues raised in the

11

petition were fully considered upon the original
submission and decision of the case. The petition was
then circulated to the full court. No judge has requested
a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied. Judge Moore would
grant rehearing for the reasons stated in her dissent.”
(A34)
Reasons for Denying the Writ
First, there is no triable issue regarding Officer
Rivera’s entitlement to summary judgment on the
grounds of qualified immunity. Second, there is no split
of authority on any material issue in this case, and no
indication that any other circuit would decide the
question of qualified immunity differently on these
facts. Third, Petitioner’s asserted error is that there are
erroneous factual findings and/or the misapplication of
a properly stated rule of law, which the Supreme Court
by its own rules rarely grants and should not be granted
here on this basis because Respondent has clearly
demonstrated that the circuit court of appeals correctly
identified which factual findings were material and
properly applied the properly stated rule of law. This is
not the case to do away with the Doctrine of Qualified
Immunity, where Respondent was found not to have
violated Petitioner’s constitutional rights.
Finally, Respondent objects to Petitioner’s
“Question Presented” because the circuit court of
appeals did not disregard the standard set forth in
Tolan v Cotton, 572 U.S. 650 (2014) and did not grant
qualified immunity based upon the defendant officer’s
testimony while failing to consider N.K.’s testimony
and the other witnesses and the video. As noted in the

12

above cited “Factual Context” the material facts found
in the record by both courts below were consistent.
Further, it was conceded by Officer Rivera, and
acknowledged by the circuit court of appeals that N.K.
had tossed the gun down at the time he was hit by the
bullet, and acknowledged by N.K. that instead of
complying with commands to show his hands, he
reached for the gun and threw it down, all of this
happening in a rapidly unfolding two-second time span.
I.

There is no triable material fact issue
regarding Officer Rivera’s entitlement
to Summary Judgment on grounds of
qualified immunity.

The Sixth Circuit Court of Appeals recognized
that any facts that might have been disputed here
were not material to Officer Rivera’s entitlement to
qualified immunity. Although the district court
believed that there was a dispute, the circuit court
of appeals amply demonstrated the evidence clearly
showed that on the first two issues, there was not a
dispute based upon N.K.’s testimony, video evidence
in the record, and Officer Rivera’s concession for
purposes of the summary judgment motion. Below is
the analysis of the district court’s stated disputed
facts:
1) Was N.K. “brandishing a gun” or “unarmed”?
Undisputed facts showed that N.K. was armed when
Officer Rivera first ordered him to “Let me see your
hands,” which was admitted by N.K.; Officer Rivera
conceded that at the time N.K. was hit by the bullet
during the two-second encounter, N.K. had dropped
the gun; and

13

2) Was N.K. compliant with Rivera’s orders? It is
undisputed that N.K. admitted that instead of
complying with Officer Rivera’s commands to “Let
me see your hands,” N.K. reached to his pants and
pulled out his gun to throw it to the ground. N.K.
admitted that after he threw the gun down, he had
begun to raise his hands when he was hit by one
bullet in the shoulder within the two-second time
span. This is consistent with Rivera’s concession.
3) On the third issue, the district court wrongly
identified it as being material: “[T]the timing of the
shooting relative to N.K.’s compliance and handling
of the gun. The circuit court noted that the
“observations about when N.K. was struck – which
Rivera concedes was after N.K. threw his gun away
– do not create a dispute of fact as to when Rivera
decided to shoot. Rivera claims he decided to shoot
when he saw N.K. grab and raise the gun. Nelson
fails to dispute this fact because N.K. and other
witnesses cannot speak to Rivera’s decision-making
or his perception of harm in the two-second span the
events unfolded.” (A10)
Because there are no disputed material facts,
there is nothing for a jury to decide. Fed. R. Civ. P.
56(c). In short, the “reviewable determination” for
the circuit court of appeals was the purely legal
question whether a “given set of facts”—that is, the
facts construed in the light most favorable to the
plaintiff—“violates
clearly
established
law.”
Roberson v. Torres, 770 F.3d 398, 402 (6th Cir. 2014).
, 770 F.3d at 402 (quoting Johnson v. Jones, 515 U.S.
304, 319 (1995).

14

Officer Rivera is entitled to qualified immunity
on Nelson’s Fourth Amendment excessive force
claim because Officer Rivera’s use of force was
reasonable. Nelson’s claim that summary judgment
was improper and that granting it was contrary to
Tolen has no merit because there is no material fact
issue for a jury as noted above.
Petitioner contends that a reasonable officer in
Rivera’s position would understand that the use of
lethal or deadly force in shooting N.K., a person who
was armed at the beginning of a two-second
encounter but had dropped the gun and was
unarmed at the end of the two-second encounter
when he was struck by the bullet, would violate
Petitioner’s clearly established constitutional rights
under the Fourth Amendment. Petitioner alleges
that at no time during the events described above
did Rivera possess justification or excuse to use
deadly force. The undisputed evidence listed below,
however, shows that Rivera is entitled to summary
judgment on grounds of qualified immunity:
(1) Rivera responded to a dispatch call for a man
with a gun at a Party Store;
(2) Upon arrival at that Party Store, Rivera saw
N.K. who matched the caller’s description and
was suspiciously crouched down outside the
Party Store;
(3) When Rivera saw three girls emerge from the
Party Store, whom Rivera did not know were
friends of N.K., and saw N.K. stand up to
head toward them, Rivera feared a potential

15

hostage situation might take place and so he
quickly moved in parking his car right in front
of N.K. at an angle to use it as a barrier;
(4) Rivera immediately stepped from his patrol
car and shouted to N.K. “Let me see your
hands!” but instead of showing his hands,
N.K. admitted that he reached into his pants
to pull out a gun to discard it;
(5) Officer Rivera did not know at the time of the
encounter that N.K.’s gun was an Airsoft BB
gun because N.K. had used a Sharpie marker
to make it all black with an appearance of a
real gun and the orange tip that clearly
identifies it as a toy gun had been removed;
(6) In the two-second time span of this encounter,
Officer Rivera did not know N.K.’s intent was
to reach for the gun to discard it, instead
believing that he was face-to-face with a
suspect who may be reaching for a gun to
shoot Rivera, one of the girls, or another
bystander and presenting an imminent threat
of deadly harm;
(7) Officer Rivera made the decision to fire his
gun at the moment he saw N.K.’s reach for the
gun but as he pulled the trigger, he realized
N.K. may be discarding the gun, but it was too
late to stop from firing the one shot.
(8) After N.K. threw the gun, he had only gotten
his hands up halfway when he was shot in the
shoulder.

16

(9) Officer Rivera had reevaluated and not fired
after the first shot once he realized there was
no longer a reasonable fear of an imminent
threat of deadly harm.
There was no evidence to controvert the material
facts of Officer Rivera’s testimony or the record video
evidence. Officer Rivera’s decision to fire one shot at
N.K. was reasonable in light of the totality of
circumstances, and was consistent with established
jurisprudence. Even viewing the summary judgment
evidence in a light most favorable to Petitioner, the
undisputed evidence in the record establishes that any
reasonable officer facing the same circumstances and
with the same information as Rivera would have fired.
In a similar case to the one at hand, Mullins v.
Cyranek, 805 F.3d 760 (6th Cir. 2015), the Sixth Circuit
properly granted summary judgment to a police officer
who fired two shots at a 16-year-old, killing him, even
though it turns out the teenager had released his
weapon before having been shot. The officer was
conducting a stop-and-frisk of an African American
teenager. The officer had concerns due to what he
perceived as furtive actions by Mullins even though he
did not alert any other officers or radio in any reports of
concern. Officer Cyranek and Mullins ended up
struggling on the ground. Cyranek always had his hand
on Mullin’s right bicep and was able to control his arms.
At some point, Mullins was able to throw his weapon 10
to 15 feet behind the officer. At the same time Mullins
threw his gun, officer Cyranek quickly rose from his
crouched position and fired twice, killing Mullins.
Importantly, “[f]ootage shows that, at most, five
seconds elapsed between when Mullins threw his

17

firearm and when [officer] Cyranek fired his final shot.”
Mullins at 764. Like the video in the instance case,
surveillance video in Mullins doesn’t show exactly
within that five second window the officer fired his two
shots. The only timing evidence comes from the casings,
with the first casing appearing approximately three
seconds after Mullins threw his gun.
In the case at hand, the entire confrontation took
place over two seconds, and Rivera had the wherewithal
not to take a second shot after he could see N.K. no
longer had the gun. In Mullins, the court found both
shots were reasonable and clearly the same outcome ̶
holding that Officer Rivera’s actions in firing the one
shot was reasonable is appropriate and consistent with
applicable case law.
“The fact that Mullins was actually unarmed
when he was shot is irrelevant to the reasonableness
inquiry in this case. See Pollard v. City of Columbus,
Ohio, 780 F.3d 395, 403-04 (6th Cir. 2015), cert. denied
(136 S. Ct. 217, 193 L. Ed. 2d 130, 2015 WL 4467981)
("That [decedent] was actually unarmed and did not
have a permit is beside the point"). Rather, "what
matters is the reasonableness of the officers' belief . . .
." Id. Because only a few seconds passed between when
Mullins brandished his firearm and when Cyranek shot
Mullins, a reasonable officer in the same situation could
have fired with the belief that Mullins still had the gun
in his hand. See Untalan 430 F.3d at 315. [*768].”
Mullins, at 767.
Like in Mullins, while hindsight reveals that
N.K. was no longer a threat when he was shot, “we do
not think it is prudent to deny police officers qualified

18

immunity in situations where they are faced with a
threat of severe physical injury or death and must make
split-second decisions, albeit ultimately mistaken
decisions, about the amount of force necessary to
subdue such a threat.” Mullins, at 768. See, e.g.,
Sigman v. Town of Chapel Hill, 161 F.3d 782, 792 (4th
Cir. 1998) ("[W]e do not think it wise to require a police
officer, in all instances, to actually detect the presence
of an object in a suspect's hands before firing on him.");
Reese v. Anderson, 926 F.2d 494, 501 (5th Cir. 1991)
("Also irrelevant [**16] is the fact that [the decedent]
was actually unarmed . . . The sad truth is that [the
decedent's] actions alone could cause a reasonable
officer to fear imminent and serious physical harm.")
Given all those undisputed facts, it was
objectively reasonable for Officer Rivera to fear for his
safety, as well as for the safety of the girls who had just
emerged from the Party Store, and he was legally
entitled to use deadly force. Graham, 490 U.S. at 39697. Where there is no material fact in dispute, there is
nothing for the jury to decide and summary judgment
is proper. Fed. R. Civ. P. 56(c); Florence v. Frontier
Airlines, Inc., 149 F. App’x 237, 240 (5th Cir. 2005);
Harris v. Interstate Brands Corp., 348 F.3d 761, 762 (8th
Cir. 2003); Fidelity & Deposit Co., 187 U.S. at 319-20.
Once raised, it is the plaintiff’s burden to show that the
defendants are not entitled to qualified immunity.”
Burgess v. Fischer, 735 F.3d 462, 472 (6th Cir. 2013).
“In other words, the defendant is entitled to summary
judgment unless the plaintiff can show the defendant’s
actions violated clearly established law at the time.”
Sova v. City of Mt. Pleasant, 142 F.3d 898, 902 (6th Cir.
1998).

19

II. There is no split of authority.
The opinion below stands for the proposition that
where an officer reasonably believes, in light of the
totality of the circumstances, that a suspect presents an
immediate threat to his safety, it is not “clearly
excessive” or “unreasonable” to use deadly force to
protect himself from that perceived threat. That
proposition is consistent with this Court’s precedents in
Mullenix v. Luna, 136 S.Ct. 305, 311-12 (2015); Graham
v. Connor, 490 U.S. 386, 396-97 (1989) (“The
‘reasonableness’ of a particular use of force must be
judged from the perspective of a reasonable officer on
the scene, rather than with the 20/20 vision of
hindsight. . . . The calculus of reasonableness must
embody allowance for the fact that police officers are
often forced to make split-second judgments—in
circumstances that are tense, uncertain, and rapidly
evolving—about the amount of force that is necessary
in a particular situation.”); Brosseau v. Haugen, 543
U.S. 194, 198, 200-01 (2004); and White v. Pauly, 137 _
S.Ct. 548, 552 (2017) (considering only the facts
knowable to defendant officer asserting qualified
immunity). Petitioner has shown no conflict with any
authority from this Court.
A. This case is not in conflict with Tolan.
Petitioner’s Writ does not rely upon any
decisions of settled law to present clearly
established law to defeat qualified immunity.
Instead, Petitioner relies upon a case that

20

couldn’t be more dissimilar to the instant case:
Tolan v Cotton, 572 U.S. 650 (2014) standing for
the proposition that for the purposes of analyzing
a summary judgment motion, the court must
take the facts in the light most favorable to the
nonmoving party. However, Tolan did not have a
video recording, the officer did not concede
Petitioner’s main point as he did here, nor was
there any hint of a gun or any weapon, all of
which were undisputed material factors in the
instant case and the material facts of Tolan were
not alleged to have taken place over a mere twosecond time span.
B. Petitioner has made no attempt to
demonstrate a split in authority among the
circuits.
In fact, Petitioner does not even attempt to list
cases showing a split of authority on whether the
officers actions were reasonable when presented
with similar circumstances, likely because such
a split does not exist. Below is a quick survey of
some similar cases in other circuits with the
same result where officers were granted
summary judgment for shooting a suspect in
rapidly unfolding events even though it was
subsequently discovered the suspect was
unarmed:
Third Circuit: The Third Circuit held that the officers
use of deadly force was reasonable against a suspected

21

car thief who was fleeing on foot when they thought he
was drawing a gun as they saw him suddenly pull his
right hand out of his waistband, even though it turned
out he had only grabbed a crack pipe. Lamont v. New
Jersey, 637 F.3d 177, 179, 180, 183-84 (3d Cir. 2011)
Fourth Circuit: In Ayala v. Wolfe, 546 F. App'x 197,
200-01 (4th Cir. 2013), another case where the officer
shot the suspect as he was seen pulling a gun from his
waistband, the court applied its reasoning and holding
from Elliott v Leavitt, 99 F.3d 640, 644 (4th Cir. 1996)
where it declared: "No citizen can fairly expect to draw
a gun on police without risking tragic consequences.
And no court can expect any human being to remain
passive in the face of an active threat on his or her life."
As it explained, "The Constitution simply does not
require police to gamble with their lives in the face of a
serious threat of harm." Id. At 641.
The Fourth Circuit granted qualified immunity to an
officer, holding that, "[W]e do not think it wise to
require a police officer, in all instances, to actually
detect the presence of an object in a suspect's hands
before firing on him."). Sigman v. Town of Chapel Hill,
161 F.3d 782, 792 (4th Cir. 1998)
Fifth Circuit: In Valderas v. City of Lubbock, 937 F.3d
384, 390, 774 Fed. Appx. 173 (5th Cir. 2019), the officer
saw Valderas pull a gun from his waistband as the
officers approached. However, the officers had not seen
that the suspect had thrown the gun into a car in the
seconds before being shot, yet the court still held that
the officer reasonably used deadly force against the

22

suspect, See id. at 387, 390. In Valderas, the officer
"was not required to wait to confirm that [the suspect]
intended to use the gun before shooting"; "[o]ur circuit
has repeatedly held that an officer's use of deadly force
is reasonable when an officer reasonably believes that
a suspect was attempting to use or reach for a weapon."
Id.
The Fifth Circuit also granted qualified immunity in a
case where the Plaintiff argued that the decedent was
actually unarmed at the time of the shooting, holding
that such a fact was irrelevant. Reese v. Anderson, 926
F.2d 494, 501 (5th Cir. 1991)
Tenth Circuit: In Estate of Valverde v. Dodge, 967
F.3d 1049 * (10th Cir. 2020), an excessive force case
where the officer shot the decedent in the back after the
decedent had discarded the gun, the District Court
denied Summary Judgment holding that a reasonable
jury could find that Valverde had discarded the gun and
was in the process of surrendering before Dodge shot
him and (2) the use of deadly force in that situation
would violate clearly established law. The 10th Circuit
reversed in spite of the fact that the Decedent’s estate
argued that there was no evidence Valverde had
pointed the gun at the officer and he clearly had
complied and discarded the gun before he was shot five
times. Dodge did not dispute that Valverde was
discarding the gun and raising his hands before being
shot. Similarly, in the case at hand, N.K. admitted that
he had already been shot at the same time he was
raising his hands. Dodge argued that his own actions
should be assessed from his perspective of what was

23

happening, and that his actions were reasonable in
light of his reasonable beliefs at the time. The 10th
Circuit agreed with Dodge since the events took place
over such a short period of time with no time for
reflection.
Eleventh Circuit: The Eleventh Circuit granted a
police officer qualified immunity when he shot a
robbery suspect who was fleeing who held a gun but
argued that he hadn’t pointed it at officers. JeanBaptiste v. Gutierrez, 627 F.3d 816, 818-19, 821 (11th
Cir. 2010). The court held that "[t]he law does not
require officers in a tense and dangerous situation to
wait until the moment a suspect uses a deadly weapon
to act to stop the suspect," Id. at 821 (original brackets
and internal quotation marks omitted).
In Robinson v. Arrugueta, 415 F.3d 1252, 1256 (11th
Cir. 2005) the Court held that an Officer's decision to
shoot within a reaction time of 2.72 seconds was
reasonable, even if subsequent assessment showed that
the officer could have escaped unharmed.
In Pace v. Capobianco, 283 F.3d 1275, 1282 (11th Cir.
2002), the court held that the use of deadly force in the
"very few seconds" after a serious threat had subsided
was reasonable and qualified immunity was granted.
III. This is not the case to do away with the
doctrine
of
Qualified
Immunity,
where
Respondent was found not to have violated
Petitioner’s constitutional rights.
Finally, the main thrust of Petitioner’s Writ is an
attempt at a persuasive argument citing treatises and

24

articles that the doctrine of qualified immunity should
be tossed aside, in spite of the fact that this court has
denied various Petitions for Writs of Certiorari as
recently as June of 2020 for excessive force cases where
the lower court held that the Defendant had violated
the Plaintiff’s constitutional rights but that the law had
not been clearly established thus the officer was
granted qualified immunity in each case. Such an
argument is clearly inapplicable to the instant case
where the circuit court of appeals held that Respondent
had not violated Petitioner’s constitutional rights, thus
there is no basis for which to grant Nelson’s Petition for
a Writ of Certiorari here.
In Brennan v. Dawson, the Sixth Circuit found
that the officer violated Plaintiff’s 4th amendment
rights when, without a warrant, he repeatedly entered
and circled the close perimeter of Brennan's home—
remaining fully within its curtilage—searching for
Brennan, but granted qualified immunity because
there was no clearly established law. Brennan v.
Dawson, 752 Fed. Appx. 276, 278-279, 2018 U.S. App.
LEXIS 28895, 2018 FED App. 0508N (6th Cir.) In spite
of the constitutional violation, officer Dawson was
granted qualified immunity because the scope of his
implied license to enter and remain on Brennan's
curtilage was not clearly established when the
constitutional violation occurred. Yet this court denied
the Petition for writ of certiorari. Dawson v. Brennan,
2020 U.S. LEXIS 3245, 207 L. Ed. 2d 1050.
In Corbitt v. Vickers, officer Vickers was alleged to have
violated Corbitt’s fourth amendment constitutional
rights when he intended to shoot a dog and accidentally
shot a minor. 929 F.3d 1304, 1323, 2019 U.S. App.

25

LEXIS 20447, *39, 27 Fla. L. Weekly Fed. C 2166, 2019
WL 3000798. Without making a determination as to
whether Vickers had violated Corbitt’s constitutional
rights, the Eleventh Circuit reversed the district court’s
order denying officer Vickers’s motion for summary
judgment, and remanded with direction to grant him
qualified immunity because it found no violation of a
clearly established right.
Again, in June, this Court denied Corbitt’s Petition for
a writ of certiorari to the United States Court of
Appeals for the Eleventh Circuit. Corbitt v. Vickers,
2020 U.S. LEXIS 3152, 207 L. Ed. 2d 1051.
In West v. City of Caldwell, the Ninth Circuit granted
the officer qualified immunity because no U.S. Supreme
Court or Ninth Circuit case clearly established, as of
August 2014, that the officers had exceeded the scope of
consent by causing tear gas canisters to enter the house
in an attempt to flush the boyfriend out into the open.
West, 931 F.3d 978, 980, 2019 U.S. App. LEXIS 22184,
*1, 2019 WL 3333744.
Also in June, in West v. Winfield, 2020 U.S. LEXIS
3153, 207 L. Ed. 2d 1052, the Petition for writ of
certiorari to the United States Court of Appeals for the
Ninth Circuit was denied.

26

PRAYER FOR RELIEF
For all of the foregoing reasons, the Petition for
Writ of Certiorari should be denied.
Respectfully submitted,
/s/Jill Humphreys Steele
Jill Humphreys Steele
City Attorney
Counsel of Record
City Attorney’s Office
10 N Division Street, Ste 207
Battle Creek, Michigan 49014
(269) 966-3385
jhsteele@battlecreekmi.gov
Counsel for Respondent

